No.
-______________________________________________

IN THE UNITED STATES
SUPREME COURT
_______________________________
TRUE HARMONY, et. al.
Petitioner,
v.
STATE OF CALIFORNIA DEPT. OF JUSTICE et al.,
Respondents.
________________________________
On Appeal from the Denial of Petition for Writ of Mandamus to
United States Court of Appeals for the Ninth Circuit to Compel
District Court Judge Hon. J. Kronstadt to Recuse Himself
[Appellate Case No. 20-72115]
PETITION FOR WRIT OF CERTIORARI
Jeffrey G Thomas, Esq.
201 Wilshire Blvd. Second Floor
Santa Monica, California 90401
Telephone: (310) 650-8326
jgthomas128@gmail.com
Petitioner In Propria Persona

QUESTIONS PRESENTED

(1) Whether 28 U.S.C. §455 disqualifies a federal
court judge for lack of impartiality to a
reasonable observer in a federal civil rights
and fraud action because as a state court
judge he intentionally and continuously as a
pattern or practice violated the automatic
stay in bankruptcy of the plaintiffs in the
federal action and entered judgments against
civil rights and fraud plaintiffs in violation of
the automatic stay in bankruptcy in the state
court, and thus denied them Due Process of
the laws under Federal law and the Federal
constitution in the state action?
(2) Whether the due process of the laws clause of
the Bill of Rights of the U.S. Constitution
p. i – Petition for the Writ of Certiorari in True Harmony et al. v.
State Dept. of Justice et al.

disqualifies a federal court judge from
deciding plaintiffs’ federal civil rights and
fraud action because of the appearance of his
actual bias because as a state court judge in a
former case he intentionally and
continuously as a pattern or practice violated
the automatic stay in bankruptcy of the
federal action plaintiffs and entered
judgment against plaintiffs in the state court
action in violation of the automatic stay, and
ipso facto denied them Due Process of the
laws under the Federal law and Federal
constitution?

p. ii – Petition for the Writ of Certiorari in True Harmony et al. v.
State Dept. of Justice et al.

TABLE OF CONTENTS
TABLE OF CONTENTS ………………………………
TABLE OF AUTHORITIES ……………………
JURISDICTIONAL STATEMENT …………………
RELIEF SOUGHT BY PETITIONERS …………….
LAWS INVOLVED IN THE PETITION …………..
I. ISSUES PRESENTED IN THE PETITION ……
II. STATEMENT OF FACTS ……………………………
III. REASONS WHY THE WRIT SHOULD
ISSUE …………………………………………………………….
A.
This Court Should Issue a Writ of Mandamus
Requiring the District Court’s Recusal under 28
U.S.C. § 455(a) Because a Reasonable Person May
Question the Federal Judge’s Impartiality …………..
B.
The Recusal of the Current Judge Hon. J.
Kronstadt Is Required by the Due Process of the
Laws Clause of Amendment Fourteen because of
the Probability of Actual Bias …………………………
IV. PETITIONERS AND THE LEGAL SYSTEM
WILL SUFFER IRREPARABLE HARM WITHOUT
i
Petition for Writ of Certiorari – True Harmony et al. v. State of
California et al.

THE WRIT, AND THE BALANCE OF EQUITIES
FAVORS GRANTING THE WRIT ……………………
V. CONCLUSION ………………………………………...
APPENDIX
EXHIBIT 1 – Order Denying Petition for Writ
Mandamus, July 28, 2020, no. 20-72115,
9th Cir. 2020 ………………………………………..….... A1
EXHIBIT 2 – Order Denying Reconsideration of
Recusal, July 2, 2020, no. 20-cv-00170, Cent. Ca.
Dist. Ct. ……………………………………………………. A3
EXHIBIT 3 – Order Denying Recusal, June 23,
2020, no. 20-cv-00170, Cent. Ca. Dist. Ct. ……. A4
EXHIBIT 4 – Further Order to Show Cause
Regarding Attorney Suspension, 9th Cir. Ct. of
Appeals, 11/13/2020 …………………………………. A9
EXHIBIT 5 – Order to Show Cause Regarding
Attorney Suspension, Cent. Ca. Dist. Ct. ……… A11
EXHIBIT 6 – Picture of façade of Los Angeles
County Law Library …………………………………. A14

ii
Petition for Writ of Certiorari – True Harmony et al. v. State of
California et al.

TABLE OF AUTHORITIES
Constitution, Statutes and Rules
Bankruptcy Clause, Art. I, Section 8 of the
United States Constitution ……………………….. 39
Supremacy Clause, Art. VI of the United
States Constitution …………………………………... 7
Amendment One of the United States
Constitution ………………………………………… 1,5,62
Amendment Fourteen of the United States
Constitution ……………………………………8,11,26, 51
11 U.S.C. §105 ……………………………………………. 19
11 U.S.C. §108(c) ……………………………………….. 28
11 U.S.C. §362(k)(1) ……………………………………. 19
26 U. S. C. §501(c)(3) ………………………………….. 2
28 U.S.C. §455(a) ………………………. 3,9,10,26,37
28 U.S.C. §1254(1) ……………………………………… 1
28 U.S.C. §1391 …………………………………………. 25
28 U.S.C. §1651 ……….………………………………… 1,3
p. iii
Petition for Writ of Certiorari – True Harmony et al. v. State
Department of Justice, U.S. Supreme Court

28 U.S.C. §2101(c) ………………………………………. 1
42 U.S.C. §1983 ………………………………………….. 2
Cal. Corp. Code §5913 ………………………………… 15
Cal. Gov’t. Code §12580 et seq. …………………… 14
Decisions
Atlantic Marine Construction Co. Inc. v. United
States District Court (2013) 571 U.S. 49 ……….. 25
Catalina Investment Co. v. Jones (2002)
98 Cal. App. 4th 1 ………………………………………. 55
Central Virginia Community College v. Katz
(2006) 546 U.S. 356 ………………………………….. 19
Christopher v. Harbury (2002) 536 U.S. 403 … 62
Davis v. Board of School Comm’rs. of Mobile
County (5th Cir. 1975), 517 F. 2d 1044, 1051, cert.
denied (1976) 425 U. S. 944 …………………… 39, 40
Eskanos & Adler v. Leetien (9th Cir. 2002)
309 F. 3d 1210 …………………………………………. 19
Fleet Mortg. Group v. Kaneb (1st Cir. 1999)
196 F. 3d 265 ……………………………………………. 29
p. iv
Petition for Writ of Certiorari – True Harmony et al. v. State
Department of Justice, U.S. Supreme Court

Grable & Sons Metal Products Inc. v. Darue
Engineering & Mfg. (2005) 545 U.S. 308 ……… 14
Hart v. Gaioni (C.D. Cal. 2005)
354 F. Supp. 2d 1127 ………………………………….. 62
Havelock v. Taxel (In re Pace) (9th Cir. 1995)
67 F. 3d 187 ……………………………………………… 30
Hurles v. Ryan (9th Cir. 2011)
752 F. 3d 768 …………………………………………….. 48
In re Benalcazar (Bank. N.D. Ill. 2002)
283 B. R. 514 ……………………………………………… 19
In re Bulger (1st Cir. 2013)
710 F. 3d 42 ………………………………………… 58, 60
In re Bulldog Trucking Inc. (4th Cir. 1998)
147 F. 3d 347 …………………………………………….. 18
In re Cargill, Inc. (1st Cir. 1995)
66 F. 3d 1256 ………………………………………………. 1
In re Sambo's Restaurants, Inc.
(9th Cir. 1985) 754 F.2d 811 ………………………….19
In re Vasquez-Botet (1st Cir. 2006)
464 F. 3d 54 ……………………………………………… 60
p. v
Petition for Writ of Certiorari – True Harmony et al. v. State
Department of Justice, U.S. Supreme Court

Kalb v. Feuerstein (1940) 308 U. S. 433 ……… 19
King v. United States District Court
(9th Cir. 1994) 6 F. 3d 992 ……………………. 41 - 46
Liteky v. United States (1994)
510 U.S. 540 ………………………………………… 38, 39
Maestri v. Jutkowsky (2d Cir. 1988)
860 F. 2d 50 ……………………………………………… 40
Moffat v. Moffat (1980) 27 Cal. 3d 645 …………. 19
Pope v. Manville Forest Products Corp.
(5th Cir. 1985) 778 F. 2d 238 ………………………. 33
Rankin v. Howard (1980) 633 F. 2d 844, cert.
den. sub. nom. Zeller v. Rankin 451 U.S. 939 … 40
Rippo v. Baker (2017) 580 U.S. ---, 137 S. Ct. 905
(per curiam) ……………………………………………… 56
Taggart v. Lorenzen (2019) 587 U.S. ---,
139 S. Ct. 1795 …………………………………………… 27
Tucker v. Outwater (2d Cir. 1997)
118 F. 3d 930 …………………………………………… 40
United States v. Antar (3rd Cir. 1995)
53 F. 3d 568 ……………………………………………… 48
p. vi
Petition for Writ of Certiorari – True Harmony et al. v. State
Department of Justice, U.S. Supreme Court

United States v. Balistrieri (7th Cir. 1985)
779 F. 2d 1191 ……………………………………………. 59
United States v. Dos Cabezas Corp. (9th Cir.
1993) 995 F. 2d 1486 ………………………………28, 31
United States v. Dreyer (9th Cir. 2012) 693 F. 3d
803 (2013) 705 F. 3d 951 (reh. den.) …………… 46
United States v. Mendoza (1984)
464 U.S. 154 ……………………………………………… 18
United States v. Monaco (9th Cir. 1988) 852 F. 2d
1143, cert. denied, 488 U.S. 1040 (1989)
…………………………………………………………… 41, 42
United States v. Throckmorton (1878)
98 U.S. 61 ………………………………………………14, 21
Williams v. Pennsylvania (2016) 579 U.S. __
[136 S. Ct. 1899] …………………………………………51

p. vii
Petition for Writ of Certiorari – True Harmony et al. v. State
Department of Justice, U.S. Supreme Court

JURISDICTIONAL STATEMENT
This Court has jurisdiction over this petition
for certiorari to the Ninth Federal Circuit’s refusal
to issue a writ of mandamus to the Central District
of California pursuant to the All Writs Act, 28
U.S.C. § 1651, to order recusal of Hon. J. Kronstadt,
federal judge assigned to action no. 20-cv-00170 in
the United States Federal Central District of
California . Exhibit 1, Denial of Petition; Exhibits 2
& 3, Orders Denying Recusal and Reconsideration
of Recusal; see, e.g., In re Cargill, Inc. (1st Cir.
1995) 66 F. 3d 1256, 1259.
Jurisdiction to consider this petition for
the writ of certiorari is authorized under 28
U.S.C. §1254(1), and it is discretionary. 28
U.S.C. §2101(c) allows a petition for writ of
p. 1
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

certiorari to be filed in this court on or before
ninety (90) calendar days from the denial of an
appeal in the federal appeals court. This
Supreme Court of the United States has
extended the period for filing the petition to one
hundred and fifty days for rulings during the
pandemic emergency. The one hundred and
fifty day period began on July 28, 2020 and will
expire on December 25, 2020.
RELIEF SOUGHT BY THE PETITIONERS
PETITIONERS, TRUE HARMONY, a
registered federal public charity of Compton
California under 28 U.S.C. §501(c)(3), 1130 SOUTH
HOPE STREET INVESTMENT ASSOCIATES LLC,
RAY HAIEM, and JEFFREY G. THOMAS, are
plaintiffs in TRUE HARMONY et al. v. STATE
p. 2
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

DEPARTMENT OF JUSTICE OF THE STATE OF
CALIFORNIA et al., case no. 20-cv-00170, United
States District Court for the Central District of
California (hereafter “federal action”), brought
under 42 U.S.C. §1983 and state law.
PETITIONERS petitioned the Ninth Federal Circuit
Court of Appeals, pursuant to 28 U.S.C. § 1651 and
Rule 21 of the Federal Rules of Appellate
Procedure, for a writ of mandamus directing the
District Court for the Central District of California
to vacate its order denying PETITIONERS’ motion
for recusal of the Honorable J. Kronstadt, Order,
(Ex. B), at 84 – 86, and its order denying their
motion to reconsider the denial of his recusal,
Order, (Ex. C), at 87, pursuant to 28 U.S.C. §
455(a). On June 22, 2020, Petitioners moved the
p. 3
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

court to recuse Hon. J. Kronstadt under 28 U.S.C.
§455(a) and the Due Process of the Laws Clause of
Amendment Fourteen to the U.S. Constitution
(Dkt. #87). On June 25, 2020, the court by Hon. P.
Gutierrez denied the motion (Dkt. #92). The order
is attached to the Declaration herein as Exhibit B.
Petitioners petitioned for mandamus in the
court of appeals to direct the District Court to
recuse the Hon. J. Kronstadt from presiding further
in this action. The Ninth Federal Circuit Court of
Appeals denied this petition on July 28, 2020.
An interim order of suspension of
PETITIONERS’ attorney at law has been entered by
the State Bar Court and relief therefrom denied by
its Review Department while PETITIONERS await
a decision on the motions to dismiss by Hon. J.
p. 4
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

Kronstadt. Despite that the State Bar Ass’n. of
California (South) filed an application for
Involuntary Inactive Enrollment (IIE) of Mr.
THOMAS in a period of abatement because of
covid19 and attempted to serve it on Mr. THOMAS
by certified mail to the autonomous office of a
storage management firm at 201 Wilshire Blvd.
during the period of abatement. The accidental
recipient forwarded three weeks later to Mr.
THOMAS, the date of “zoom” hearing on the
Application was not noted thereon, Mr. THOMAS
did not receive a letter setting the date of the
“zoom-type” hearing. Offices of the State Bar Court
South and the State Bar Association were closed
during this pandemic time and no one at either
agency answered the telephone, and the State Bar
p. 5
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

Court entered a “default” order of IIE against
THOMAS. This interlocutory order of suspension
for failure to pay plainly erroneous and
unconstitutional money sanctions which the State
Bar Association has filed with the federal courts in
this State violates PETITIONERS’ constitutional
rights of free speech and petitioning and access to
courts and the same rights for Mr. THOMAS, their
counselor at law, because it threatens to prevent
THOMAS from representing PETITIONERS in the
federal action.
PETITIONERS and THOMAS have exhausted
their remedies from the suspension in the Review
Department of the State Bar Court. Ancillary to
this petition, PETITIONERS and THOMAS seek
emergency relief from the order of suspension and
p. 6
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

the orders to show cause of the local federal courts.
Exhibits 4 & 5, Orders to Show Cause.
Throughout this petition, unless the context
otherwise requires, “defendants” refers to attorneys
at law Rosario Perry, Norman Solomon, Hugh John
Gibson, and their controlled entities 1130 South
Hope Street Investment Associates LLC, the
California LLC (now known as 1130 Hope Street
Investment Associates LLC), and Hope Park Lofts
LLC (now known as Hope Park Lofts 200102910056 LLC). Citations to various documents as
Exhibits designated by alphabetical letter herein
are citations to evidence filed in in the court of
appeals in support of the petition for the writ of
mandamus. Citations to Exhibits by number are

p. 7
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

citations to the five required orders in the Appendix
hereto.
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Art. I, Section 8 of the United States
Constitution:
“The Congress shall have
power to . . . establish an . . .
uniform laws on the subject of
Bankruptcies throughout the United
States.”
Art. VI Section 2 of the United States
Constitution:
“This Constitution, and the
Laws of the United States which
shall be made in Pursuance thereof;
and all Treaties made, or which
p. 8
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

shall be made, under the Authority
of the United States, shall be the
supreme Law of the Land; and the
Judges in every State shall be bound
thereby; any Thing in the
Constitution or Laws of any State to
the Contrary notwithstanding.”
Amendment One of the United States
Constitution:
“Congress shall make no law .
. . abridging the freedom of the
speech or of the press; or of the right
peaceably to assemble, and to
petition the government for a
redress of grievances.”

p. 9
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

Amendment Fourteen of the U. S.
Constitution, Section One:
“No state shall make or
enforce any law which shall abridge
the privileges or immunities of
citizens of the United States; nor
shall any state deprive any person
of life, liberty, or property, without
due process of law; nor deny to any
person within its jurisdiction the
equal protection of the laws.”

28 U.S.C. §455(a):
Any justice, judge, or
magistrate judge of the United
States shall disqualify himself in
p. 10
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

any proceeding in which his
impartiality might reasonably be
questioned.
I. ISSUES PRESENTED IN THE PETITION
The questions presented by this Petition are:
(1)

Could a reasonable person question the

impartiality of the judge assigned to the federal civil
rights and fraud action because it attacks his
intentional violations as a state court judge of
PETITIONERS’ automatic stay in bankruptcy and
entry of judgment(s) against PETITIONERS, as the
gravamen of the federal action with violations of
other federal laws, requiring the former state court
judge and federal court judge to disqualify himself
under 28 U.S.C. §455; and

p. 11
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

(2)

Is the probability of actual bias established by

the federal judge’s actions as a former state court
judge because of his intentional violations as a state
court judge of PETITIONERS’ automatic stay in
bankruptcy and entry of judgment(s) against
PETITIONERS, as the gravamen of the federal
action with violations of other federal laws,
requiring the former state court judge and federal
court judge to disqualify himself under the Due
Process of the Laws Clause of Amendment
Fourteen of the United States Constitution.
II. STATEMENT OF FACTS
The history of the dispute between
PETITIONERS TRUE HARMONY and 1130
SOUTH HOPE STREET INVESTMENT
ASSOCIATES, LLC, the Delaware limited liability
p. 12
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

company, plaintiffs in the federal action, and
attorney at law Rosario Perry formerly representing
TRUE HARMONY and attorney at law Norman
Solomon, and Norman Solomon’s and Rosario
Perry’s wholly controlled entities 1130 South Hope
Street Investment Associates LLC (the California
LLC) and Hope Park Lofts LLC, and attorney at law
Hugh John Gibson Esq., is reviewed in the petition
for writ of certiorari in Thomas v. Solomon, filed in
this U. S. Supreme Court as no. 19-537. The factual
background is also reviewed in the petition for writ
of certiorari in Thomas v. Zelon, U.S.C.t. no. 181113.
The facts concerning the fraud and lack of
due process in the defendant’s theft of title of
PETITIONER TRUE HARMONY and the Delaware
p. 13
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

LLC’s property are summarized in these petitions
for the writ. Furthermore, some facts alleged in the
federal action concerning the defendant’s
conspiracy to deny access to the courts to
PETITIONERS and to conceal the conspiracies to
defraud the PETITIONERS and to deny access to
the courts to PETITIONERS are also reviewed in
these petitions.
As explained in the petition for writ of
certiorari in 19-537, PETITIONERS did not succeed
in the state court in their action to nullify the
judgments entered by state courts alleged to be void
in violation of federal law, federal due process of
the laws and state law requiring the state attorney
general to consent to the transfer of title of
PETITIONER’s property, and the automatic stay in
p. 14
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

bankruptcy. But the state court pleading did not
include a fraud cause of action, and it did not
include a cause of action for violation of federal civil
rights and the Due Process of the Laws. The
current federal action challenges the application of
res judicata in the state action to the state court
judgments conferring title to the Property in
violation of the automatic stay in bankruptcy, and
the federal common law of taxation of exempt
organizations, and the denial of Due Process of the
laws resulting to the PETITIONERS therefore, and
the fraud on the court and the public of attorneys at
law representing or appearing as parties plaintiff
and defendant in the same action. United States v.
Throckmorton (1878) 98 U.S. 61.

p. 15
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

The federal action challenges the fraud in
violation of these federal laws as fraud under the
Uniform Supervision of Charitable Trustees Act,
Cal. Gov’t. Code §12580 et seq., a cause of action
that is alleged to arise under federal law because it
anticipates defendants’ defenses under federal law.
Grable & Sons Metal Products Inc. v. Darue
Engineering & Mfg. (2005) 545 U.S. 308. The
federal action also alleges a private right of action
in PETITIONERS to enforce this law. The Second
Amended Complaint alleges that PETITIONERS
have standing to bring the federal actions as
taxpayers and as persons protected by the federal
common law. Because two state’s attorney
generals, Kamala Harris and Xavier Becerra,
declined to intervene in the PETITIONERS’ state
p. 16
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

action and the federal action, as parens patriae to
enforce a cease and desist order under Cal. Corp.
Code §5913 (which is in pari materia with the
Uniform Supervision of Charitable Trustees Act).
To briefly summarize the factual background
of the dispute over the charity’s property, the
federal action alleges that defendants Rosario Perry
and Norman Solomon (both licensed attorneys at
law) and their wholly controlled entities deceived
the state court to transfer title to the Property with
false testimony that the state’s attorney general had
approved the transfer of title under Cal. Corp. Code
§5913 to them (and apparently false argument to
the Los Angeles Court of Appeals). It alleges that
Rosario Perry and Norman Solomon deceived the
state courts with a fraudulent brief arguing that
p. 17
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

PETITIONERS waived attorney-client privilege for
their former attorney representing them, the
defendant Rosario Perry, to testify against them
that they had agreed to a fake settlement agreement
after the state courts decided action no. BC244718
for PETITIONERS. This fake settlement agreement
purported to transfer the property to the wholly
controlled entity belonging to defendants Perry and
Solomon, 1130 South Hope Street Investment
Associates LLC (the California LLC).1
This fake settlement agreement is referred to
herein as the “doubly fake” or “doubly false”
agreement, because Perry and Solomon and coconspirator Gibson misrepresented to the state
courts in subsequent actions and to the federal
bankruptcy court that the that the fake
settlement agreement contained a binding
arbitration clause, when they knew that the only
testimony that they presented to the state court
in action no. BC244718 was that PETITIONER
1

p. 18
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

PETITIONERS filed the federal action in 20cv-00170 in TRUE HARMONY et al. v. STATE
DEPT. OF JUSTICE et al. in 2020. This is well
within the ten year statute of limitations of the
Uniform Supervision of Charitable Trustees Act.
PETITIONERS allege that the parens patriae
doctrine and taxpayer standing confer standing on
them to bring the action when the state’s attorney
general unreasonably refuses, and joined him as an
involuntary plaintiff and defendant. The state’s
attorney general moved to dismiss the Second
Amended Complaint on the basis of sovereign
immunity, and no standing against him.

TRUE HARMONY’s agent signed a fake
settlement agreement with a non-binding
arbitration clause.
p. 19
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

PETITIONERS responded that the state’s attorney
general unreasonably refused to voluntarily join in
the action as a plaintiff, and the public interest
exception to res judicata avoids this defense.
United States v. Mendoza (1984) 464 U.S. 154.
Furthermore that the Due Process of the Laws
Clause forbids the federal courts from presuming
jurisdiction from existence of a judgment, In re
Bulldog Trucking Inc. (4th Cir. 1998) 147 F. 3d 347,
which is an unconstitutional practice of the state
courts as apparently followed in the state court
between PETITIONERS and defendants, Moffat v.
Moffat (1980) 27 Cal. 3d 645, and that the
PETITIONERS’ civil rights under bankruptcy law
forbid this state court practice. See Eskanos &
Adler v. Leetien (9th Cir. 2002) 309 F. 3d 1210,
p. 20
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

1213; In re Sambo's Restaurants, Inc. (9th Cir.
1985) 754 F.2d 811; In re Benalcazar (Bank. N.D.
Ill. 2002) 283 B. R. 514; see also Central Virginia
Community College v. Katz (2006) 546 U.S. 356.
PETITIONERS responded to the motions to
dismiss that the bankruptcy law exception to the
Rooker-Feldman matter avoids it in this action.
See 11 U.S.C. §105; 11 U.S.C. §362(k)(1); Kalb v.
Feuerstein (1940) 308 U. S. 433.
Rosario Perry and Norman Solomon, licensed
attorneys at law, relied upon the “doubly
fraudulent” settlement agreement containing the
“doubly false” clause for binding arbitration to the
state court in the post appeal proceedings in the
quiet title lawsuit, and caused the state court to
enter a judgment of title for their wholly controlled
p. 21
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

entities in reliance on the double falsity of the fake
arbitration clause in the fake settlement agreement.
Rosario Perry as putative manager, caused the
wholly controlled limited liability company to
include this doubly fraudulent agreement in a
petition to compel arbitration in a later civil action
(BC385560) seeking to void transfers of title to the
property by PETITIONERS among themselves and
to their wholly controlled entities. It is conclusive
that the defendants caused fraud on the court
under the federal common law because they
represented parties or controlled parties on
opposite sides of the courts. United States v.
Throckmorton (1878) 98 U.S. 61. After the state
court ordered arbitration, PETITIONERS filed a
petition in bankruptcy for the Delaware LLC after
p. 22
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

transferring title to it from TRUE HARMONY, in
09-bk-20914. Rosario Perry and Norman
Solomon’s wholly controlled entity submitted this
doubly fraudulent agreement with the motion to lift
the automatic stay to the bankruptcy court, and
obtained an order lifting the automatic stay in
bankruptcy in reliance thereupon.
The federal judge in the federal action, Hon.
J. Kronstadt was the state court judge in
BC385560. As the state court judge, he entered
judgment for defendants confirming an arbitration
award of title to Rosario Perry and Norman
Solomon’s wholly controlled entity, after the
PETITIONERS filed the petition in bankruptcy, in
violation of the automatic stay. He granted
summary adjudication for the defendants and
p. 23
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

wholly controlled entity during the stay, in violation
thereof. He entered judgment against
PETITIONERS therein transferring title to the
property to defendants in BC385560, fewer than
thirty days after the bankruptcy entered the order
lifting the stay in reliance upon Perry’s and
Solomon’s fraud on the state court and bankruptcy
court involving the doubly false binding arbitration
clause. And he refused a continuance to TRUE
HARMONY and the Delaware LLC to try the case
represented by a licensed counselor at law. As
explained in the petition for writ of mandamus
defendants induced Hon. J. Kronstadt to violate
their automatic stay in bankruptcy at least six
times, which certainly seems like a kind of record
for disrespect of federal bankruptcy law.
p. 24
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

To these viable causes of action in the federal
action attacking these violations of the federal
bankruptcy law, federal taxation law and the
federal common law of fraud on the court by
licensed attorneys at law, PETITIONERS added a
causes of action to the federal action claiming
denial of their taxpayers rights under Due Process
of Laws for state attorney general to enforce her
cease and desist order against the California LLC’s
sale of the Property to Bihmf, LLC. PETITIONERS
added another cause of action claiming that parens
patriae doctrine and the federal common law
conferred on them the right to bring the action in
the name of the State of California in the public
interest because the states attorneys general’s
refusal to join in the action as plaintiff is
p. 25
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

unreasonable, and the public interest exception
renders the res judicata defense of defendants
inoperable.
Perry, Solomon and Gibson, attorneys at law,
filed motions to dismiss the Second Amended
Complaint in the federal action. Hon. J. Kronstadt
has not yet decided these motions, although he took
the “hearings” scheduled on his court’s calendar for
Nov. 16 on Nov. 11. Thus the issue(s) of his
disqualification herein are not moot.
It is noteworthy that Hon. J. Kronstadt not
only refused to disqualify himself, he also signed an
order accepting a transfer of this action which was
originally filed in the Southern Division of the
federal district court, as it was the PETITIONER’s
right to bring the action in the Southern Division
p. 26
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

under 28 U.S.C. §1391 and Atlantic Marine
Construction Co. Inc. v. United States District
Court (2013) 571 U.S. 49. Defendants transferred
the action to Hon. J. Kronstadt by the ruse of a
motion to change venue, and did not move the
court to transfer it for convenience of the parties
and witnesses. Hon. J. Kronstadt accepted the
transfer knowing that the motion was a ruse and
that he had predecided the bankruptcy law issues
against PETITIONERS in state court and prima
facie appeared to be biased against PETITIONERS.
(Dkt. #80, June 16, 2020).
The writ relief is authorized by the Due
Process of the Laws Clause of Amendment
Fourteen of the Constitution, and 28 U.S.C.
§455(a), to wit:
p. 27
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

“a) Any justice, judge, or magistrate judge
of the United States shall disqualify
himself in any proceeding in which his
impartiality might reasonably be
questioned. (b) He shall also disqualify
himself in the following circumstances:(1)
Where he has a personal bias or prejudice
concerning a party, or personal
knowledge of disputed evidentiary facts
concerning the proceeding . . .
The automatic stay is the jurisdictional sine
qua non that guarantees the primacy of the federal
bankruptcy law over inferior state law and state
courts, and assures that the law will not interfere
with business during reorganization. Taggart v.
Lorentzen (S. Ct. 2019) 139 S. Ct. 1795. The
p. 28
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

superior court clerk in BC385560 filed the notice of
the stay in the state court’s records the next day
following the filing of the petition in bankruptcy.
Hon. J. Kronstadt first violated the automatic
stay in bankruptcy first by entering a judgment
against PETITIONERS including restraints on the
debtor in possession the Delaware LLC (and its
alter egos the officers of PETITIONER TRUE
HARMONY and TRUE HARMONY itself)’s
property on June 3, 2009 Judgment, (Ex. H) at
206:21 - 24; 209:3 – 9: 210:1 – 211:28; First
Amended Complaint, (Ex. L), at 268:1 – 273:19;
see also United States v. Dos Cabezas Corp. (9th
Cir. 1993) 995 F. 2d 1486. Second, by holding a
hearing on a summary adjudication motion in
December of 2009 that included relief against
p. 29
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

debtor in possession the Delaware LLC and also its
related person and indispensable party TRUE
HARMONY, Docket (Ex. G) at 169, and by granting
the summary adjudication. SAC (Ex. A), at 47:23 –
49:13. Hon. J. Kronstadt stated on the record in
the reporters transcript of the so-called trial (which
itself was a willful violation of the automatic stay
because it was within the prohibited thirty day
period of Bank. Code Section 108(c)) that he “had
given enough time already” to the PETITIONERS
(plaintiffs) TRUE HARMONY in the Delaware LLC
to prepare for the trial during the action. 5,
Transcript (Ex. I), at 214 – 237; Fleet Mortg.
Group v. Kaneb (1st Cir. 1999) 196 F. 3d 265.
The state court by Hon. J. Kronstadt
bootstrapped the illegal summary judgment in
p. 30
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

violation of the automatic stay into evidence at the
illegal premature trial in violation of the automatic
stay. Transcript (#I) at 225:12 – 226:26, 240 –
244, passim. The dockets of the bankruptcy case,
Docket, Ex. D, at 89 - 98, and action no. BC385560,
Docket, (Ex. G), at 185 - 193, the judgments in
action no. BC385560 Judgments, (Exs. H, K), at
203-213 and 261 – 267, and the transcript of the
trial of action no. BC385560 Transcript, (Ex. I) at
214 - 255, are proof that Hon. J. Kronstadt
intentionally violated the automatic stay for the
debtor in possession in 09-bk-20914, the Delaware
LLC, and also for PETITIONER TRUE HARMONY
which defendants made an indispensable party to
the relief that they requested by the first amended
complaint in BC385560. First Amended Complaint
p. 31
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

(Ex. L), passim and 268:1 – 273:19. Furthermore
it was very obvious that the debtor in bankruptcy
the Delaware LLC and TRUE HARMONY were
alter egos because the court, the defendants and the
PETITIONERS all treated the PETITIONERS as
alter egos, and they were both entitled to protection
of the automatic stay. Bankruptcy Code §§105,
362(k)(1); Havelock v. Taxel (In re Pace) (9th Cir.
1995) 67 F. 3d 187; United States v. Dos Cabezas
Corp. (9th Cir. 1993) 995 F. 2d 1486.
Hon. J. Kronstadt’s pervasive animus and
malice toward PETITIONERS’ federal rights under
federal bankruptcy law stymied their reorganization
and caused the bankruptcy salvo to be terminated
unfairly because of an order lifting the stay procured
by fraud on the court, and a trial that violated the
p. 32
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

bankruptcy stay. See Order (Ex. F), at 159 – 164;
see also Reply (Ex. E), at 90 – 110 and esp. 144 –
148 (Declaration of Norman Solomon filed in
violation of the automatic stay). RESPONDENTS
argued to the bankruptcy court that the judgment
dated June 3, 2009, Judgment, (Ex. H), at 203 - 213
was not entered against the Delaware LLC, but the
judgment plainly operates against all
PETITIONERS (defendants in BC385560) because,
among other things, the judgment purported to
nullify the deed from PETITIONER TRUE
HARMONY to the Delaware LLC. Judgment (Ex.
H), at 206:21 - 24; see also 209:3 – 9: 210:1 –
211:28. If the motion to lift the stay had not
deceived the bankruptcy court, and Hon. J.
Kronstadt had not violated the PETITIONRERS’
p. 33
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

automatic stay the bankruptcy of the PETITIONERS
would have continued, and PETITIONERS would
have had the opportunity for hearings on intended
adversary actions in the bankruptcy court to apply
federal bankruptcy law to nullify the judgment of
title in BC244718 as a fraudulent transfer and a
preferential transfer under Bankruptcy Code
§§544(c) and 547(c).
The automatic stay guarantees that an action
in state court will languish on its own docket, and
no judgments, orders or pleadings will be filed and
no hearings will be conducted in state court. Pope
v. Manville Forest Products Corp. (5th Cir. 1985)
778 F. 2d 238. All of the actions of Hon. J.
Kronstadt as a state court judge violated this
principle and used the automatic stay as a sword
p. 34
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

inflicting harm, not as the intended shield from
harm. And Hon. J. Kronstadt violated the
automatic stay no fewer than six times in BC385560
counting the actions discussed herein, and the entry
of the summary judgment on March 15, 2010 and
the entry of judgment after the so-called trial on
April 22, 2010. These rulings plainly in contempt of
the federal bankruptcy court, prima facie.
On page 13 of the transcript (Ex. I) in the
Evidence of the Petition for the Writ of Mandamus,
at 226:
“11 The court: You agree with that, Mr.
Marzet, I
12 previously granted summary
adjudication as to certain

p. 35
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

13 entities and certain claims – Excuse
me.
14 There were prior hearings. As a result
of
15 Those prior hearings, I granted
summary adjudication, I
16 believe, is that correct?
17 Mr. Berke: Yes.
18 The court: As to both certain claims
and as those
19 claims pertain to certain individuals
and entities. You
20 agree with that?
21 Mr. Berke: I do.
22 The court: do you agree with that, sir?
23 Mr. Marzet: Yes.
p. 36
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

24 The court: I stayed that order in part
pending the
25 Bankruptcy court’s consideration of the
new – of the
26 then recently filed bankruptcy
proceedings.” Transcript, Exhibit E, page
13: 11 – 26.
What is needed is to remove the cause of the
contempt shown for the federal bankruptcy law
from this action. There is no doubt that the
unconstitutional practices of state courts and the
albatross of overtly partisan one-party politics in
the Los Angeles Superior Court and the Los Angeles
Appeals Court dragged PETITIONERS’ state court
action to the bottom of the legal “sea” in the
proverbial Davy Jones’s locker and doomed it. And
p. 37
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

this federal action will sink in the sea of judicial
bias toward an inherently flawed and political sate
court system, if this Supreme Court of the U.S. does
not intervene to cut the Gordian knot of
unconstitutionality and refusal of political states’
attorneys generals to execute their mission of
protecting the public charitable assets of
PETITIONERS that has “balled up” this case so far.
Indeed, the Los Angeles bar association and
the Los Angeles courts have publicly displayed their
bias toward subordinate state law by displaying the
shield of the state Supreme Court above the shield
of the U.S. Supreme Court on the exterior of its
newly remodeled law library, across from the state
courthouse and the new federal court house in Los
Angeles, California. Picture, Appx., Exhibit 6.
p. 38
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

III. REASONS WHY THE WRIT SHOULD ISSUE
A.

This Court Should Issue a Writ of Mandamus

Requiring the District Court’s Recusal under 28
U.S.C. § 455(a) Because a Reasonable Person May
Question the Federal Judge’s Impartiality
In United States v. Liteky (1994) 510 U.S. 540
this Supreme Court of the United States defined the
requirement of 28 U.S.C. §455(a) of the appearance
to a reasonable person of impropriety of the federal
judge requiring disqualification. In Liteky, a
motion for recusal was filed alleging that the trial
judge displayed “impatience, disregard for the
defense and animosity.” Our Supreme Court held
that the evidence of improper bias or prejudice,
which is incorporated from 28 U.S.C. §455(b) in 28
U.S.C. §455(a), must be based on an extrajudicial
p. 39
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

source. An extrajudicial source is normally not the
statements of a judicial officer sitting on the bench
unless those statements “display a deep-seated and
unequivocal antagonism that renders fair
judgment impossible.” Liteky, supra.
Liteky also cited and approved the case law
allowing the pervasive grounds for disqualification
under 28 U.S.C. §455. Davis v. Board of School
Comm’rs. of Mobile County (5th Cir. 1975), 517 F.
2d 1044, 1051, cert. denied (1976) 425 U. S. 944.
Whether or not this Supreme Court believed that
extrajudicial source and pervasiveness could merge
was not the issue in Liteky, and the Court did not
discuss it. But it seems clear that rulings or actions
by a state court judge which go beyond state court
jurisdiction and destroy federal bankruptcy court
p. 40
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

jurisdiction are extrajudicial, and the federal action
raises this issue.
State court judges (and federal judges) who
intentionally destroy rights guaranteed by the
federal bankruptcy law and the Bankruptcy Clause
may lose their judicial immunity in doing so.
Maestri v. Jutkowski (2d Cir. 1988) 860 F. 2d 50;
see also Tucker v. Outwater (2d Cir. 1997) 118 F.
3d 930; Rankin v. Howard (1980) 633 F. 2d 844,
cert. den. sub. nom. Zeller v. Rankin 451 U.S. 939.
The actions of state judges who intentionally violate
federal rights may therefore deemed to be
extrajudicial in this context, within the context of
28 U.S.C. §455. If their actions are not
extrajudicial, they are pervasively antagonistic to
federal law that causes their rulings to lose the safe
p. 41
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

haven of the extrajudicial mantle within the
meaning of Davis, supra.
This issue of the consideration of a string of
adverse rulings intended to harm a party as
equivalent to the predecision or bias proven by
verbal statements from the bench of prejudice,
hostility, bad animus and ill will was discussed in
Judge Reinhardt’s concurring opinion in King v
United States District Court (9th Cir. 1994) 16 F. 3d
992. The late Judge Reinhardt wrote that:
“Nevertheless, we have made it clear
that there is an exception to the general
rule that courtroom statements are not
enough to warrant recusal and that
‘extrajudicial’ bias is required. That
exception is applicable when the
p. 42
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

petitioner can demonstrate through
expressions of opinion and rulings
made in the course of judicial
proceedings that the bias is ‘pervasive.’
United States v. Monaco, 852 F.2d
1143, 1147 (9th Cir. 1988) (An exception
to the extrajudicial bias rule is made
‘when a judge's remarks in a judicial
context demonstrate such pervasive
bias and prejudice that it constitutes
bias against a party.’).
In Monaco we did not describe or
define the type or nature of the
‘pervasive bias’ that would justify
application of the exception. We
merely adopted the exception without
p. 43
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

more. A few cases in other circuits
have limited the pervasive bias rule to
statements indicating personal
animosity. See Davis, 734 F.2d at
1303; United States v. Sims, 845 F.2d
1564, 1570 (11th Cir. 1988). However,
so narrow an exception is inconsistent
with the plain language of § 455(a), as
well as with the purpose of that
provision. Under the statute, recusal is
required "in any proceeding in which
[a judge's] impartiality might
reasonably be questioned" by members
of the public. That language would
seem to dictate the conclusion that
impartiality is lacking not only when a
p. 44
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

judge feels personal animosity toward
a party but when a judge has for other
reasons pre-determined the outcome of
the case - and even when he has simply
formed a strong opinion with respect
to how the critical issues of fact should
be decided. Moreover, the statute
clearly does not apply only when a
judge is biased. The test is an objective
one. We must look to how the judge's
conduct appears to the public; in other
words, we must consider the
appearance of justice. A case like the
one before us, in which the district
judge has on an earlier occasion
expressed firm convictions regarding
p. 45
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

the issues of fact that are critical to the
outcome of the pending proceeding, is
rare.
Indeed, in such an unusual case,
however, reasonable people could well
conclude that the court has made up its
mind. The appearance of judicial
impartiality would appear to be
threatened in such cases no less than in
the other cases in which judges are
required to recuse themselves. [fn.
Omitted].
This is not a case in which the same
parties litigate the same issue in two
different trials. Such a case would
raise far different questions. Here,
p. 46
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

Judge Davies formed his views of the
issues in a case in which, as noted
earlier, Rodney King was not a party.
King provides us with examples of
rulings and statements by Judge
Davies that he contends reveal
pervasive bias and prove that the judge
has firm convictions regarding all of
the important factual issues underlying
the civil claim. They are as follows: . .
. .” 16 F. 3d at 994 – 995.
In United States v. Dreyer (9th Cir. 2012)
693 F.3d 803, see also 705 F. 3d 951 (2013 opinion regarding denial of rehearing en banc),
the defendant, a psychiatrist, developed dementia
at the age of 63 and entered into a drug conspiracy.
p. 47
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

He entered a guilty plea. The court of appeals held
that at the sentencing hearing, the judge should
have sua sponte ordered a competency hearing,
because the defense attorney did not know what the
client with dementia would say at the sentencing
hearing and refused the client’s opportunity to
speak.
Here, the Hon. J. Kronstadt should have sua
sponte halted the trial in BC385560 to cause it to
“languish on the docket” in accordance with federal
bankruptcy law and taxation law to permit
PETITIONERS the opportunity to pursue their
remedies in bankruptcy law. Hon. J. Kronstadt’s
comments on the PETITIONERS’ perceived
inaction in the so-called trial which violated the
automatic stay were premature, because the
p. 48
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

bankruptcy law prohibited the trial when it
occurred. And they were pervasively antagonistic
because he deemed the state law rule requiring a
corporation to be represented by counselor at law
dispositive of PETITIONERS’ federal rights.
In United States v. Antar (3rd Cir. 1995) 53
F. 3d 568, the defendant was the subject of both a
civil SEC action and a criminal contempt action for
failing to comply with the court’s order in the civil
case regarding the return of money. When
imposing sentence, the judge stated that his object,
“from day one . . . was to get back to the public
that which was taken from it.” In this case Hon. J.
Kronstadt’s rulings had the effect of the public
never getting back the use of public charitable

p. 49
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

assets of TRUE HARMONY from the greedy
clutches of its former attorneys at law.
In Hurles v. Ryan (9th Cir. 2011) 752 F. 3d
768 when a pretrial ruling concerning the
appointment of additional counsel was appealed,
the judge appeared as a nominal party in the
appellate court but actually filed a pleading, urging
that the ruling was proper and that the simplicity of
the case (implying that the evidence of guilt was
overwhelming) justified the decision to deny the
appointment of two lawyers in this death penalty
case. These statements were similar to the Hon. J.
Kronstadt’s preclusion of PLAINTIFFS’ evidence in
the trial. This court of appeals held that the state
trial judge’s participation in the appeal caused her
to be disqualified for bias in the death penalty
p. 50
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

proceedings on remand, without a remand for a full
evidentiary hearing on the state judge’s impartiality
required. Here the situation requires a full
evidentiary hearing on the former state judge Hon.
J. Kronstadt’s impartiality. No decision of any
federal court has considered this important
question, and for the sake of preserving the
integrity of federal law and the federal judiciary, the
Court must take up this question now.
The situation contemplated by Judge
Reinhardt in the King dissent is exactly presented
by the evidence here. And for the sake of public
confidence in the law and the judicial system, this
Court should intervene to declare that pervasive
bias and animosity to the federal law as
demonstrated by ruing after ruling against federal
p. 51
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

law is equivalent to speech that impeaches the
federal law that our system intends to prohibit
certain state laws, but the county of Los Angeles,
California deems itself superior to federal law in
every aspect. Exhibit 6, Picture of the Exterior
Façade of the Los Angeles County Law Library.
B.

The Recusal of the Current Judge Hon. J.

Kronstadt Is Required by the Due Process of the
Laws Clause of Amendment Fourteen because of
the Probability of Actual Bias
In Williams v. Pennsylvania (2016) 579 U.S.
___ [136 S. Ct. 1899], the Supreme Court of the
United States reversed a conviction because of the
conflict of interest of the appellate judge who
affirmed the conviction and who was the district
attorney whose office tried the case and convicted
p. 52
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

the defendant. It was an “impermissible risk of
actual bias” because of “significant, personal
involvement as a prosecutor in a critical decision
regarding the defendant's case” that violated
constitutional due process of the laws.
In Caperton v. Massey (2009) 556 U.S. 868,
the chief executive officer of a party to an appeal in
the state supreme court of West Virginia spent
millions of dollars to support the political campaign
of a judge on the state supreme court. These
campaign contributions created the same risk of
actual bias that offended the Due Process of the
Laws, and required the Supreme Court to set aside
the decision of the state supreme court.
Every one of the judgments entered by Hon.
J. Kronstadt in his state court BC385560 action
p. 53
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

contained a version of the following paragraph
usurping the powers of the secretary of state of the
state of California:
“IT IS HEREBY ADJUDGED,
DETERMINED AND DECREED:
As to Defendant 1130 South Hope Street
Investment Associates, LLC, a Delaware
limited liability company.
1.

A declaration and judicial

determination is hereby made that: (a)
the California LLC remains an existing
California LLC; (b) any document
purporting to cancel the California LLC is
deemed void; (c) the California LLC is the
sole legal and equitable owner of, and fee
p. 54
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

title holder to, the property located at
1130 South Hope Street, Los Angeles,
California (“the subject property”), (d) the
Quitclaim Deed signed by Samuel F.
Benskin dated February 7, 2008 and
recorded as Instrument No. 20080232175
on February 7, 2008 is void and of no
legal effect whatsoever; (e) the Quitclaim
Deed signed by Farzad Haiem and
Jonathan Marzet on December 10, 2009
and recorded as Instrument No.
20091950890 on December 22, 2009 is
void and of no legal effect whatsoever,
and (f) the Delaware LLC has absolutely
no right, title, estate interest or lien in or
to the subject real property, or any part
p. 55
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

thereof; …” Judgment, Exhibit C, and
Notices of Judgments, Exhibits F & G.
Some versions of this ubiquitous paragraph in
the judgments provide that the cancellation never
happened, some versions provide that the
cancellation is void. Judgments (Ex. H, J, K), at
___. But Hon. J. Kronstadt as state court judge
did not have jurisdiction to rule that the limited
liability company was always existing and not
cancelled. Such a judgment required a petition in
the state court for writ of mandamus to the
secretary of state of the state to reinstate a
cancelled limited liability company on the terms
and conditions deemed appropriate by the
secretary of state of the state. Catalina Investment
Co. v. Jones (2002) 98 Cal. App. 4th 1.
p. 56
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

Because of Hon. J. Kronstadt’s frank
antagonism for the automatic stay in bankruptcy as
a state court judge, Transcript of the Trial (Ex. I),
at 214- 255, he is actually biased against bankrupt
debtors and PETITIONERS. It cannot be doubted
that as a federal judge that he resists admitting that
he grossly violated federal law. And he also
violated the fundamental principle of Separation of
Powers of the executive and judicial branches of
government, Supremacy of federal law, and Due
Process of the Laws, which is equally embarrassing.
It follows that the Constitution requires his recusal.
Rippo v. Baker (2017) 580 U.S. ---, 137 S. Ct. 905
(per curiam); Caperton, supra.
Because of the probability of actual bias, the
Hon. J. Kronstadt should have recused himself and
p. 57
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

should not have signed the order to transfer the
action from the Southern Division to the Western
Division, which defendants submitted to the
judicial officer in the Southern Division of the
District Court, Hon. D. Carter, for his signature and
which violated General Order 19-03 of the District
Court for random selection of judges. Granting this
petition and requiring recusal would go a long way
to ensure that PETITIONERS have their day in
Court before a fair and impartial judicial officer,
and the integrity of federal law and the federal
judicial system will be preserved.
IV.

PETITIONERS AND THE LEGAL

SYSTEM WILL SUFFER IRREPARABLE
HARM WITHOUT IT, AND THE BALANCE

p. 58
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

OF EQUITIES FAVORS GRANTING THE
WRIT
The Court should issue a writ of mandamus
requiring the District Court’s recusal because both
PETITIONERS and the judicial system would
otherwise suffer irreparable harm. Damage to the
judicial system alone is sufficient to show
irreparable harm. In re Bulger (1st Cir. 2013) 710 F.
3d 42 at 49 (“we can leave aside any question of
harm personal to the defendant and concentrate
on damage to the judicial system . . . . it [is]
imperative to act promptly to preclude any
reasonable question whether . . . action in the past
may affect the fairness of the judicial branch in the
present.”). A judge’s impartiality in any case cuts to
the core of the public’s trust in the justice system as
p. 59
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

a whole, because these rules in 28 U.S.C. §455 are
based on Section 3(C) of the Code of Judicial
Conduct of the American Bar Association. The
writ of mandamus stands by to “prevent[] injury to
the public perception of the judicial system before
it has a chance to occur.” United States v.
Balistrieri (7th Cir. 1985) 779 F. 2d 1191, 1205.
Indeed, the recognized purpose of §455(a) is to
address “systemic interests” regarding “concerns
[about] the appearance of impropriety.” Fowler v.
Butts (7th Cir. 2016) 829 F. 3d 788, 791.
Since the vast majority of the District Court’s
findings on the pending motions would involve
questions of fact, or mixed questions of law and
fact, the appellate court would not review those
findings de novo. For example, an appellate court
p. 60
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

will only reverse the District Court’s findings if they
are “clearly erroneous.” FRCP 52(a)(6); Accusoft
Corp. v. Palo (1st Cir. 2001), 237 F. 3d 31, 40 (“we
will not disturb the master’s factual findings unless
they are clearly erroneous”). Therefore, absent
mandamus, PETITIONERS may lose their one
chance to have a fair and complete argument before
an impartial and neutral Court that it is the real
titleholder of the Property and is entitled to
proceeds of the RESPONDENTS’ sale of the
Property with interest thereon.
A number of factors specific to this case show
the necessary “favorable balance of the equities” to
justify issuance of the requested writ of mandamus.
In re Vasquez-Botet (1st Cir. 2006) 464 F. 3d 54, 57
(1st Cir. 2006); In re Bulger (1st Cir. 2013) 710 F.
p. 61
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

3d 42, 49 (“a mandamus petitioner must show . . .
a balance of equities in his favor.”). Perhaps most
importantly, PETITIONERS merely seek their
opportunity to have a meaningful, de novo review
(whether or not referred to and decided by the
bankruptcy court) of the issues concerning title to
the Property they contest in good faith.
PETITIONERS are currently in a situation where
their rights under bankruptcy law to contest
fraudulent judgments which are the basis of
Defendants’ false claims to title to their Property
will be reviewed by the same judge who violated the
automatic stay in bankruptcy at every opportunity
in state court and misapplied it to trap
PETITIONERS (plaintiffs herein) and to terminate

p. 62
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

the automatic stay early and to default them in
state court.
Finally, the State Bar Court has entered an
order of suspension of PETITIONERS’ privileges to
practice law, pursuant to an interim order in a
disciplinary case which seeks to enjoin
PETITIONERS’ attorney from “maintaining the
action” in the District Court, pursuant to a vague
and void antiquated state law that plainly violates
constitutional rights of free speech, petitioning and
access to courts. Especially since there was no
evidence at all to support the monetary sanctions of
the state courts in the first place, which were
requested and received by defendants to conceal
their conspiracy to defraud PETITIONERS of their
property. Christopher v. Harbury (2002) 536 U.S.
p. 63
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

403; Hart v. Gaioni (C.D. Cal. 2005) 354 F. Supp.
2d 1127.
This is another very important reason to
grant the petition and to direct the District Court to
recuse Hon. J. Kronstadt and to proceed to
discovery and trial in this action with
PETITIONERS represented by their counselor at
law THOMAS.
CONCLUSION
In conclusion, this Supreme Court of the
United States must grant the writ and must direct
the district court to assign another judicial officer
to this action. It must grant an emergency stay of
the orders to show cause in the disciplinary
proceedings against THOMAS in the federal courts
based upon the unconstitutional order of
p. 64
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

suspension in the State Bar Court to allow the
action to proceed normally before an unbiased
judge.
December 16, 2020

/s/ Jeffrey G. Thomas
Attorney at law for
Petitioners

p. 65
Petition for Writ of Certiorari, U.S. Sup. Ct. – True Harmony et
al. v. State Department of Justice

APPENDIX
EXHIBIT 1
Order Denying Petition for Writ Mandamus,
July 28, 2020, no. 20-72115, 9th Cir. 2020
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
In re: TRUE HARMONY; et al.
______________________________
TRUE HARMONY; et al., Petitioners, v.
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA, SANTA
ANA, Respondent, CALIFORNIA
DEPARTMENT OF JUSTICE; et al., Real Parties
in Interest.
No. 20-72115 D.C. No. 8:20-cv-00170-JAK-ADS
Central District of California, Santa Ana
ORDER
Before: THOMAS, Chief Judge, SCHROEDER
and CALLAHAN, Circuit Judges.
Petitioners have not demonstrated that this case
warrants the intervention of the court by means
of the extraordinary remedy of mandamus.
p. A1
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

See Bauman v. U.S. Dist. Court, 557 F. 2d 650
(9th Cir. 1977). Accordingly, the petition, as
supplemented, is denied. All pending motions
are denied as moot.
DENIED.

p. A2
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

EXHIBIT 2
Order Denying Reconsideration of Recusal, July
2, 2020, no. 20-cv-00170, Cent. Ca. Dist. Ct.
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA CIVIL MINUTES GENERAL Case No. SACV 20-170 JAK (ADSx)
Date June 25, 2020 Title True Harmony et al v.
The Department of Justice of the State of
California et al.
Present: The Honorable Philip S. Gutierrez,
United States District Judge
Wendy Hernandez: Deputy Clerk
Court Reporter: Not Reported
Attorneys Present for Plaintiff(s): Not Present
Attorneys Present for Defendant(s): Not Present
Proceedings (In Chambers): Order Denying
Plaintiffs’ Motion for Reconsideration
Before the Court is Plaintiffs’ motion for
reconsideration of this Court’s June 25, 2020
Order denying their motion for disqualification
of Judge Kronstadt. See Dkt. # 93 (“Mot”); June
25, 2020 Order, Dkt. # 92. Having read and
considered the motion, the Court DENIES it.
IT IS SO ORDERED.
p. A3
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

EXHIBIT 3
Order Denying Recusal, June 23, 2020, no. 20cv-00170, Cent. Ca. Dist. Ct.
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA CIVIL MINUTES GENERAL Case No. SACV 20-170 JAK (ADSx)
Date June 25, 2020 Title True Harmony et al v.
The Department of Justice of the State of
California et al.
Present: The Honorable Philip S. Gutierrez,
United States District Judge
Wendy Hernandez: Deputy Clerk
Court Reporter: Not Reported
Attorneys Present for Plaintiff(s): Not Present
Attorneys Present for Defendant(s): Not Present
Proceedings (In Chambers): Order DENYING
Plaintiffs’ motions to disqualify
Before the Court are Plaintiffs True Harmony,
Ray Haiem, and Jeffrey G. Thomas’ (“Plaintiffs”)
identical motions for recusal of Judge John A.
Kronstadt. Dkts. # 87 (“Mot.”), 89. The motions
were referred to this Court pursuant to General
Order 19-03 and Local Rule 72-5. Dkt. # 91. The
Court finds the matter appropriate for decision
without oral argument. See Fed. R. Civ. P. 78(b);
L.R. 7-15. After considering Plaintiffs’
p. A4
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

arguments, the Court DENIES the motions.
Under 28 U.S.C. § 455(a), “[a]ny justice, judge,
or magistrate judge of the United States shall
disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.”
The Ninth Circuit has interpreted § 455(a) as
requiring recusal when “a reasonable person
with knowledge of all of the facts would conclude
that the judge’s impartiality might reasonably be
questioned.” United States v. Holland, 519 F.3d
909, 913 (9th Cir. 2008) (quoting Clemens v.
U.S. Dist. Ct., 428 F.3d 1175, 1178 (9th Cir.
2005)). In other words, § 455(a) “asks whether a
reasonable person perceives a significant risk
that the judge will resolve the case on a basis
other than the merits.” Clemens, 428 F.3d at
1178 (quoting In re Mason, 916 F.2d 384, 385
(7th Cir. 1990)). “The ‘reasonable person’ is not
someone who is ‘hypersensitive or unduly
suspicious,’ but rather is a ‘well-informed,
thoughtful observer.’” Holland, 519 F.3d at 913
(quoting In re Mason, 916 F.2d at 385). Under §
455(b)(1), any justice, judge, or magistrate of the
United States “shall also disqualify himself . . .
[w]here he has a personal bias or prejudice
concerning a party, or personal knowledge of
disputed evidentiary facts concerning the
proceeding.” However, “only personal
knowledge of disputed evidentiary facts gained
in an extrajudicial capacity is grounds for
recusal.” United States v. Pollard, 959 F.2d 1011,
p. A5
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

1031 (D.C. Cir. 1992); see also Omega Eng’g, Inc.
v. Omega, S.A., 432 F. 3d 437, 447–48 (2d Cir.
2005) (holding that “[k]knowledge gained from
Page 2 of 3
the judge’s discharge of his judicial function is
not a ground for disqualification under 28 U.S.C.
§ 455(b)(1).”). To prove that disqualification is
warranted under § 455(b)(1), a petitioner must
offer evidence of a “negative bias or prejudice
[which] . . . must be grounded in some personal
animus or malice that the judge harbors against
him, of a kind that a fair-minded person could
not entirely set aside when judging certain
persons or causes.” United States v. Balistrieri,
779 F.2d 1191, 1201 (7th Cir. 1985) (citations
omitted); see Hook v. McDade, 89 F.3d 350, 355
(7th Cir. 1996) (finding that disqualification is
appropriate if “actual bias or prejudice is ‘proved
by compelling evidence’”). To determine
whether bias exists, courts consider “whether a
reasonable person would be convinced the judge
[is] biased.” Hook, 89 F.3d at 355 (citations
omitted). Plaintiffs argue that Judge Kronstadt
should be disqualified under § 455(b)(1). See
generally Mot. According to Plaintiffs, when
Judge Kronstadt was a state court judge, he
violated an automatic bankruptcy stay in a case
where he presided over the issue of Plaintiffs’
title to a piece of property. See id. 1. They allege
p. A6
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

that Judge Kronstadt held a “so-called trial”
before the thirty-day statutory waiting period
had run and denied them the right to present
evidence because of prior summary adjudication
against them. See id. 2, 4. The Court concludes
that recusal is not warranted. The mere fact that
Judge Kronstadt, as a state court judge, presided
over a case that Plaintiffs were involved in is not
grounds for recusal. Plaintiffs do not argue that
Judge Kronstadt gained personal knowledge of
disputed evidentiary facts “in an extrajudicial
capacity” when he presided over the prior case.
See Pollard, 959 F.2d at 1031 (emphasis added).
Without meeting this extrajudicial capacity
requirement, recusal is “rarely” warranted. See
Andrade v. Chojnacki, 338 F.3d 448, 455 (5th
Cir. 2003) (citing Liteky v. United States, 510
U.S. 540, 555 (1994)). Plaintiffs also fail to show
that, in making these rulings, Judge Kronstadt
exhibited “a deep-seated favoritism or
antagonism that would make fair judgment
impossible.” See Liteky, 510 U.S. at 555. In the
end, Plaintiffs’ arguments for recusal essentially
amount to displeasure with Judge Kronstadt’s
prior judicial rulings in a case involving
Plaintiffs. But, “judicial rulings alone almost
never constitute a valid basis for a bias or
partiality motion.” Id. (citing United States v
Grinnell Corp., 384 U.S. 563, 583 (1966)); see
also Blixseth v. Yellowstone Mountain Club,
LLC, 742 F. 3d 1215, 1220 (9th Cir. 2014)
p. A7
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

(explaining that disqualification can be based on
judicial rulings only if they result from improper
extrajudicial knowledge or “reveal such a high
degree of favoritism or antagonism as to make
fair judgment impossible”). While Plaintiffs
contend that Judge Kronstadt’s prior rulings
were wrong and improper, they have produced
no evidence that they were motivated by bias or
antagonism against them.
Page 3 of 3
Accordingly, the Court DENIES Plaintiffs’
motions to disqualify Judge Kronstadt.
IT IS SO ORDERED.

p. A8
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

EXHIBIT 4
Order to Show Cause Regarding Attorney
Suspension, 9th Cir. Ct. of Appeals
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT In re: JEFFREY GRAY
THOMAS, Admitted to the bar of the Ninth
Circuit: November 11, 2009, Respondent. No.
20-80143
ORDER
Before: Peter L. Shaw, Appellate Commissioner.
The court has received the response of Jeffrey
Gray Thomas, Esq., to the court’s October 13,
2020 order to show cause why he should not be
suspended or disbarred on the basis of his
enrollment as an inactive member of the
California bar. Pursuant to Ninth Circuit Rule
46-2(c), Thomas’s involuntary inactive
enrollment is a sufficient basis for initiating
reciprocal disciplinary proceedings. See Gadda
v. Ashcroft, 377 F.3d 934, 942 (9th Cir. 2004).
Reciprocal disciplinary proceedings are stayed
pending the outcome of proceedings in the
Review Department of the State Bar Court.
Respondent Thomas shall file a status report
p. A9
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

within 60 days after the date of this order, or
within 14 days after a final decision by the
Review Department, whichever is sooner.

p. A10
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

EXHIBIT 5
Order to Show Cause Regarding Attorney
Suspension, Cent. Ca. Dist. Ct.
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA In the Disciplinary
Matter of Jeffrey Gray Thomas California State
Bar # 83076
CASE NO: 2:20−ad−00779−PSG
ORDER TO SHOW CAUSE
This Court has received notice that the attorney
named above has been suspended from the
practice of law by the Supreme Court of
California or the California State Bar Court,
effective August 22, 2020. Accordingly, the
attorney named above is HEREBY ORDERED
TO SHOW CAUSE, in writing, within 30 days of
the date of this order, why he or she should not
be suspended from the practice of law before
this Court, pursuant to Rule 83-3.2 of the Local
Rules for the Central District of California. If the
attorney does not contest the imposition of a
suspension from this Court or does not respond
to this order to show cause within the time
specified, the Court shall issue an order of
suspension. A response to this order to show
cause must make the showing required in Local
p. A11
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

Rule 83-3.2. In addition, at the time a response
is filed, the attorney must produce a certified
copy of the entire record from the other
Page 1 of 2
jurisdiction or bear the burden of persuading the
Court that less than the entire record will suffice.
See Local Rule 83-3.2.3. A response to this order
to show cause and any related documentation
may be filed electronically, in accordance with
the Court’s local rules, or manually, at the
Edward R. Roybal Federal Building and
Courthouse, 255 East Temple Street, Room 180,
Los Angeles, California 90012, Attn: Civil Intake.
All documents filed must include the case
number in the caption. Unless stated otherwise
by order of the Court, an attorney who has been
suspended from the Bar of this Court because of
a suspension by the Supreme Court of California
or the California State Bar Court will be
reinstated to the Bar of this Court upon proof of
reinstatement as an active member in good
standing in the State Bar of California. An
attorney registered to use the Court’s Electronic
Case Filing System (ECF) who is suspended by
this Court will not have access to file documents
electronically until the attorney is reinstated to
the Bar of this Court.

p. A12
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

Date: November 6, 2020
/s/ PHILIP S. GUTIERREZ CHIEF
UNITED STATES DISTRICT JUDGE

p. A13
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

EXHIBIT 6
Picture of Exterior Façade of County Law
Library

p. A1
Appendix to Petition for Writ of Certiorari, U.S. Sup. Ct.

